 DEPARTMENT OF HOMELAND SECURITY

 Ofﬁce of Inspector General



   Progress and Challenges in Securing
         the Nation’s Cyberspace




 Ofﬁce of Information Technology
OIG-04-29                    July 2004
                                                                      Ofﬁce of Inspector General

                                                                      U.S. Department of Homeland Security
                                                                      Washington, DC 20528




                                              Preface

The Department of Homeland Security (DHS) Ofﬁce of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, investigative, and special reports
prepared by the OIG as part of its DHS oversight responsibility to identify and prevent fraud,
waste, abuse, and mismanagement.

This report assesses the strengths and weaknesses of the program or operation under review. It
is based on interviews with employees and ofﬁcials of relevant agencies and institutions, direct
observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to the OIG,
and have been discussed in draft with those responsible for implementation. It is my hope that
this report will result in more effective, efﬁcient, and economical operations. I express my
appreciation to all of those who contributed to the preparation of this report.




                                              Clark Kent Ervin
                                              Inspector General
                                                                                                                              Contents

  Introduction ......................................................................................................................................3

  Results in Brief .............................................................................................................................. 3

  Background ......................................................................................................................................5

  Progress         ........................................................................................................................................8

  Challenges… ................................................................................................................................ 10

  Recommendations… .................................................................................................................... 15

  Management Comments and OIG Evaluation ............................................................................. 16

Appendices

  Appendix A:                 Purpose, Scope, and Methodology ................................................................. 21
  Appendix B:                 Management’s Response ................................................................................ 22
  Appendix C:                 Major Contributors to this Report ................................................................... 28
  Appendix D:                 Report Distribution ......................................................................................... 29


Abbreviations

  CERT®/CC                    CERT® Coordination Center
  CISO                        Chief Information Security Ofﬁcer
  DHS                         Department of Homeland Security
  FedCIRC                     Federal Computer Incident Response Center
  FTE                         Full-Time Equivalent
  GFIRST                      Government Forum of Incident Response and Security Teams
  HSOC                        Homeland Security Operations Center
  IAIP                        Information Analysis and Infrastructure Protection
  IIMG                        Interagency Incident Management Group
  IT                          Information Technology
  NCSD                        National Cyber Security Division
  OIG                         Ofﬁce of Inspector General
  US-CERT                     United States Computer Emergency Readiness Team



                           Progress and Challenges in Securing the Nation’s Cyberspace                                                                  Page 1
Page 2   Progress and Challenges in Securing the Nation’s Cyberspace
OIG
Department of Homeland Security
Ofﬁce of Inspector General


    Introduction
                                  The speed, virulence, and maliciousness of cyber attacks have increased
                                  dramatically in recent years. More and more people are capable of launching
                                  signiﬁcant assaults against the nation’s infrastructure and cyberspace because of
                                  the increasing sophistication of computer attack tools. As noted by the CERT®
                                  Coordination Center (CERT®/CC), identiﬁed computer security vulnerabilities
                                  that an attacker can exploit have increased dramatically, with the number of
                                  vulnerabilities quadrupling from 1,090 in 2000 to 4,129 in 2002. Industry experts
                                  agree that cyber terrorism, in which computer systems become targets, is one of
                                  the nation’s top ﬁve security threats and will likely remain so for years to come.1

                                  Due to the signiﬁcance of cyber threats on the United States and their possible
                                  consequences, the security of cyber systems is one of the Department of
                                  Homeland Security’s (DHS) highest priorities. The objectives of our audit were
                                  to determine whether DHS’ efforts to implement the White House’s cyber strategy
                                  - The National Strategy to Secure Cyberspace2 - and to protect the nation’s critical
                                  infrastructure from a major cyber terrorist attack are adequate and effective.
                                  We performed our work at the National Cyber Security Division (NCSD) from
                                  December 2003 through February 2004. See Appendix A for a discussion of our
                                  purpose, scope, and methodology.

    Results in Brief
                                  DHS has begun to implement the actions and recommendations detailed in The
                                  National Strategy to Secure Cyberspace. With the establishment of NCSD in June
                                  2003, DHS made notable progress in protecting the nation’s critical infrastructure
                                  from cyber vulnerabilities, threats, and attacks. Major accomplishments include:

                                        •     Creation of the United States Computer Emergency Readiness Team
                                              (US-CERT). Formed as a partnership between NCSD and the private

    1
        SC Magazine, December 2002.
    2
        The White House issued The National Strategy to Secure Cyberspace in February 2003.




                                Progress and Challenges in Securing the Nation’s Cyberspace                    Page 3
                                         sector, US-CERT serves as the national focal point for computer security
                                         efforts.

                                   •     Establishment of the National Cyber Alert System, managed by
                                         US-CERT, as the means to relay cyber security information to all
                                         computer users.

                                   •     Participation by NCSD in Dartmouth College’s cyber focused
                                         communications and coordination exercise (LiveWire).3

                                   •     Sponsorship by NCSD of the National Cyber Security Summit to
                                         promote information sharing and partnerships with the private sector in
                                         securing cyberspace.4

                                   •     Formation of three new organizations to strengthen federal information
                                         technology (IT) defenses and coordinate responses to system threats.5

                             Though NCSD has undertaken some major initiatives, it still faces a number of
                             challenges to address long-term cyber threats and vulnerabilities to the nation’s
                             critical infrastructure. Speciﬁcally, NCSD has not:

                                   •     Prioritized its initiatives to address the recommendations in The National
                                         Strategy to Secure Cyberspace.

                                   •     Identiﬁed the resources needed to ensure that it can identify, analyze, and
                                         reduce long-term cyber threats and vulnerabilities.

                                   •     Developed strategic implementation plans, including performance
                                         measures and milestones, focusing on the division’s priorities, initiatives,
                                         and tasks.

                                   •     Instituted a formal communications process within DHS, as well as the
                                         public, private, and international sectors.


3
  Conducted in October 2003, LiveWire was a national communications and coordination exercise designed to test current preparedness,
business processes, and communications paths by imitating a variety of cyber attacks and demonstrating interdependencies between the
cyber infrastructure and other critical infrastructures.
4
  As a result of the summit, ﬁve task forces, sponsored by the private sector, were formed and reported their ﬁndings and recommendations
on key security issues facing the United States.
5
  The three organizations formed were the Government Forum of Incident Response and Security Teams (GFIRST), the Federal Chief
Information Security Ofﬁcers (CISO) Forum, and the Cyber Interagency Incident Management Group (IIMG).


Page 4                                        Progress and Challenges in Securing the Nation’s Cyberspace
                    •     Initiated and implemented a process to oversee and coordinate efforts
                          to develop best practices and create cyber security policies with other
                          government agencies and the private sector.

                    •     Reviewed or updated the actions and recommendations in The National
                          Strategy to Secure Cyberspace.

               NCSD must address these issues to reduce the risk that the critical infrastructure
               may fail due to cyber attacks.

               In response to our draft report, IAIP agreed with and has already taken steps to
               implement each of the recommendations. However, IAIP also said that some
               of our recommendations have been rendered obsolete or overcome by new
               circumstances. Based on our assessment of IAIP’s speciﬁc comments, none of
               the recommendations have been fully implemented, and therefore, the conditions
               noted in the report continue to exist. IAIP’s response is summarized and
               evaluated in the body of this report and included, in its entirety, as Appendix B.

Background
               Critical infrastructures, economy, and national security in the United States
               are dependent on IT and telecommunications systems. The consequences of
               a cyber attack on our critical information networks and infrastructures, which
               are composed of public and private institutions in many different sectors under
               the guidance of federal lead departments and agencies (illustrated in Figure 1
               below), can have a signiﬁcant negative effect on the United States. The resulting
               widespread disruption of essential services after a cyber attack could delay the
               notiﬁcation of emergency services, damage our economy, and put public safety at
               risk.




             Progress and Challenges in Securing the Nation’s Cyberspace                       Page 5
           Figure 1
                                                          Critical Infrastructure Lead Agencies

                                            Lead Agencies                                                Sectors
                                                                                 Agriculture
                               Department of Agriculture
                                                                                 Food (meat, poultry, and egg products)
                               Department of Defense                             Defense Industrial Base
                               Department of Energy                              Energy
                                                                                 Public Health
                               Department of Health and Human
                                                                                 Healthcare
                               Services
                                                                                 Food (except meat, poultry, and egg products)
                                                                                 Information Technology
                                                                                 Telecommunications
                                                                                 Chemical
                               Department of Homeland Security
                                                                                 Transportation Systems
                                                                                 Postal and Shipping
                                                                                 Emergency Services
                               Department of the Interior                        National Monuments and Icons
                               Department of the Treasury                        Banking and Finance
                                                                                 Drinking Water
                               Environmental Protection Agency
                                                                                 Water Treatment Systems

                              In response to the September 11, 2001, terrorist attacks, The National Strategy for
                              Homeland Security6 was developed to mobilize and organize national homeland
                              security functions to secure the United States from future attacks. The National
                              Strategy for Homeland Security organizes homeland security functions into six
                              critical mission areas, including protecting critical infrastructure and key assets.
                              Eight major initiatives come under the area of protecting critical infrastructure and
                              key assets, including the need to secure cyberspace.

                              As the ﬁrst step in the long-term effort to secure the nation’s information
                              infrastructure and to provide a framework for protecting cyberspace,7 the White
                              House issued The National Strategy to Secure Cyberspace in February 2003.
                              This blueprint is an integral part of DHS’ overall mission to protect the nation’s
                              information systems. It highlights actions and recommendations that the federal


6
  The White House issued The National Strategy for Homeland Security in July 2002.
7
  For the purposes of this audit, cyberspace refers to the interconnected information systems and networks that comprise the Nation’s
infrastructure.


Page 6                                         Progress and Challenges in Securing the Nation’s Cyberspace
                             government and the private sector should take to address the nation’s ﬁve
                             cyberspace priorities:

                                  •     Priority I - A National Cyberspace Security Response System

                                  •     Priority II - A National Cyberspace Security Threat and Vulnerability
                                        Reduction Program

                                  •     Priority III - A National Cyberspace Security Awareness and Training
                                        Program

                                  •     Priority IV - Securing Governments’ Cyberspace

                                  •     Priority V - National Security and International Cyberspace Security
                                        Cooperation

                             DHS plays a central role in executing The National Strategy to Secure
                             Cyberspace. In addition to implementing the actions directly assigned to it,
                             DHS serves as the primary point of contact for the public and private sectors on
                             issues related to cyberspace security. In cooperation with the White House, DHS
                             coordinates and supports implementation of non-federal tasks, such as getting
                             home users and small businesses to secure their connections to cyberspace.

                             Due to the signiﬁcance of cyber threats to the nation, the security of cyber
                             systems is one of the highest priorities within DHS. In March 2003, DHS merged
                             several organizational components, which it had inherited, and combined them
                             under its newly formed Information Analysis and Infrastructure Protection (IAIP)
                             Directorate.8 IAIP has the responsibility to: (1) identify and assess a broad
                             range of intelligence information concerning current and future threats against
                             the United States; (2) map identiﬁed threats against nationwide vulnerabilities;
                             (3) issue timely warnings and advisories for the full spectrum of terrorist threats
                             against the homeland, including physical and cyber events; (4) take appropriate
                             preventive or protective actions to mitigate identiﬁed risks and assist in response
                             and recovery efforts; and, (5) carry out comprehensive assessments of the
                             vulnerabilities of the key resources and critical infrastructure of the United States.




8
  The following organizational components were brought together to form DHS’ IAIP Directorate: Critical Infrastructure Assurance Ofﬁce,
Federal Computer Incident Response Center (FedCIRC), National Communications System, National Infrastructure Protection Center, and
National Infrastructure Simulation and Analysis Center and Energy Security and Assurance Program.


                          Progress and Challenges in Securing the Nation’s Cyberspace                                          Page 7
                              IAIP created NCSD in June 2003 to implement the actions and recommendations
                              described in The National Strategy to Secure Cyberspace, as well as to be
                              the national focal point to address cyber security issues in the United States.
                              Its mission includes: (1) identifying, analyzing, and reducing cyber threats
                              and vulnerabilities; (2) disseminating cyber threat warning information; (3)
                              coordinating cyber incident response; and, (4) providing technical assistance in
                              continuity of operations and recovery from cyber incidents.

DHS Is Making Progress
                              With the creation of NCSD, DHS raised the nation’s awareness of the possibility
                              of cyber terrorist attacks and the need to protect critical infrastructures from
                              such attacks. NCSD has undertaken several initiatives to address the actions and
                              recommendations in The National Strategy to Secure Cyberspace, including:

                                    •    Creation of US-CERT.9 In partnership with CERT®/CC at Carnegie
                                         Mellon University, US-CERT serves as the national focal and
                                         coordination point for computer security efforts. US-CERT is
                                         charged with analyzing and reducing cyber threats and vulnerabilities;
                                         disseminating cyber threat warning information; and, coordinating
                                         incident response. The creation of US-CERT satisﬁes the ﬁrst
                                         recommendation associated with Priority I in The National Strategy to
                                         Secure Cyberspace. Priority I calls for the creation of a single point of
                                         contact for the federal government’s interaction with industry and other
                                         partners for continual functions, including cyberspace analysis, warning,
                                         information sharing, major incident response, and national recovery
                                         efforts.

                                    •    Implementation of the National Cyber Alert System.10 This alert system
                                         is the nation’s ﬁrst cohesive cyber security system to identify, analyze,
                                         and prioritize emerging vulnerabilities and threats. Through security
                                         alerts, tips, and bulletins, the system disseminates information on cyber
                                         security issues and provides free computer security update and warnings
                                         to all computer users who sign up on US-CERT’s web site.11 Cyber
                                         security alerts are issued when vulnerabilities are identiﬁed or exploited.
                                         Bi-weekly cyber security tips provide information on best computer

9
  US-CERT was created in September 2003.
10
   The National Cyber Security Alert System was implemented in January 2004.
11
   As of February 9, 2004, over 250,000 users have subscribed to the system. Also, as of March 24, 2004, 6 cyber alerts, 5 security tips and
5 security bulletins have been issued.



Page 8                                         Progress and Challenges in Securing the Nation’s Cyberspace
                                        security practices, as well as “how-to” information, for all users in
                                        both a technical and non-technical format. Security bulletins, also bi-
                                        weekly, provide summaries about security issues, notiﬁcation of new
                                        vulnerabilities, potential impact, and actions required to mitigate risk.
                                        With the implementation of the National Cyber Alert System, NCSD
                                        addresses recommendations that fall under Priority III in The National
                                        Strategy to Secure Cyberspace.

                                   •    Participation in Dartmouth College’s cyber focused communications and
                                        coordination exercise (LiveWire). Conducted in October 2003, LiveWire
                                        was a large scale exercise designed to test the coordination of private and
                                        public sector incident management, response, and recovery capabilities.
                                        The results of the exercise are being used as a foundation for DHS’
                                        response capabilities to a cyber attack, and to plan for LiveWire II,
                                        which began in February 2004. As recommended under Priority I in The
                                        National Strategy to Secure Cyberspace, DHS uses exercises to evaluate
                                        the impact of cyber attacks on government-wide processes and to test the
                                        coordination of public and private sector incident management, response,
                                        and recovery capabilities.

                                   •    Hosting the National Cyber Security Summit.12 This summit was
                                        designed to strengthen partnerships between NCSD and the private
                                        sector, and focused on addressing key security issues facing the United
                                        States. Five private sector task forces were formed during the summit:
                                        Awareness for Home Users and Small Businesses; Cyber Security Early
                                        Warning, Best Practices and Standards; Corporate Governance, Best
                                        Practices and Standards; Technical Standards and Common Criteria;
                                        and Security Across the Software Development Life Cycle: Secure
                                        Software. These task forces will recommend strategies to address the
                                        national cyberspace priorities outlined in The National Strategy to Secure
                                        Cyberspace.

                                   •    Establishment of three new organizations to strengthen federal IT
                                        defenses, coordinate responses to systems threats, and improve
                                        information sharing. Facilitated by NCSD, the three organizations
                                        - GFIRST, Federal CISO Forum, and Cyber IIMG - are composed
                                        of management ofﬁcials from the federal government. GFIRST
                                        was established to share operational incident response data, tools,


12
     The National Cyber Security Summit was hosted by NCSD in December 2003.


                           Progress and Challenges in Securing the Nation’s Cyberspace                        Page 9
                       technologies, and techniques between security practitioners across the
                       federal government. The Federal CISO Forum was launched to provide
                       a trusted environment for agencies to share positive and negative
                       experiences with technology and applications. Through the Cyber
                       IIMG, NCSD formed a group to address cyber attack attribution issues,
                       as well as a working group to discuss threat scenarios and mitigation
                       tactics and techniques. As recommended under Priority I in The National
                       Strategy to Secure Cyberspace, these organizations will work together
                       to remove impediments to information sharing about cyber security and
                       infrastructure vulnerabilities within the federal government.

              In addition, NCSD is establishing programs with the National Science
              Foundation, the National Security Agency, and other federal agencies to educate,
              train, and certify students and professionals on information assurance and cyber
              security. NCSD plans to launch a US-CERT cyber exchange partnership program
              during 2004. This program will provide public and private organizations active
              in cyber security watch, warning, and response activities with a trusted forum to
              exchange and coordinate information and events. Also, NCSD is participating
              in international forums to promote the international aspects of protecting critical
              infrastructures from cyber terrorism. These activities directly address priorities
              established in The National Strategy to Secure Cyberspace.

Challenges Remain In Developing a U.S. Cyber Protection Program
              Despite the progress made, DHS faces signiﬁcant challenges in developing
              and implementing a program to protect our national cyber infrastructure. DHS
              has experienced delays in establishing its structure, which includes deﬁning its
              budget and stafﬁng requirements, and faces a number of additional challenges
              in instituting the enhanced cyber threat analysis organization that is needed to
              address long-term threats and vulnerabilities to the nation’s critical infrastructure.

              Prioritize Initiatives and Establish Milestones

              NCSD has not prioritized its initiatives or established individual milestones and
              benchmarks. There is little assurance that NCSD can successfully address the
              actions and recommendations in The National Strategy to Secure Cyberspace
              in a timely manner if milestones are not established. Milestones are needed to
              monitor the implementation of the actions and recommendations. Additionally,
              NCSD cannot substantiate its budget and stafﬁng needs, validate its organizational
              structure, develop performance measures, or coordinate and oversee efforts to


Page 10                    Progress and Challenges in Securing the Nation’s Cyberspace
                               mitigate long-term cyber security vulnerabilities and threats if these initiatives are
                               not prioritized.

                               Because its goals and initiatives have not yet been prioritized, NCSD’s branch
                               chiefs assign staff to so-called mission critical tasks and activities, without ofﬁcial
                               input or oversight from management. The director of NCSD, who did not report
                               to DHS until mid-October 2003, ﬁrst began conducting weekly staff meetings to
                               discuss priorities in February 2004.

                               Resource Requirements Identiﬁcation

                               NCSD has not identiﬁed its long-term budget or resource requirements based
                               on the priorities that must be established to carry out its mission. During a four
                               month period, NCSD drafted three different organizational structures. Each was
                               a reﬁnement that permitted NCSD to align its areas of focus with its available
                               resources and tasks. The ﬁnalization of its organizational structure is necessary
                               for NCSD to establish its long-term budget and stafﬁng requirements, develop
                               strategic plans, implement performance measures, and oversee efforts to address
                               the recommendations in The National Strategy to Secure Cyberspace.

                               IAIP provided NCSD with a budget of $78.85 million and 29 full-time equivalent
                               (FTE) staff for ﬁscal year 2004. NCSD also relies heavily on contractors to
                               address many of its initiatives and tasks. According to NCSD management
                               ofﬁcials, additional resources will be needed as the division’s priorities and
                               structure become better deﬁned. As of February 23, 2004, NCSD had a staff of 84
                               (21 FTEs and 63 contractors).

                               NCSD has estimated that a staff of 112 (45 FTEs and 67 contractors), and a
                               proposed budget of $79.62 million will be needed to accomplish the goals IAIP
                               has proposed for FY 2004.13 Though NCSD’s 2004 estimates are not based on
                               the division’s priorities or initiatives, efforts are under way to justify stafﬁng
                               and budget increases based on the priorities established in The National Strategy
                               to Secure Cyberspace, such as the assessment of threats and vulnerabilities to
                               federal cyber systems. Remediation plans then can be developed to secure the
                               government’s cyberspace.




13
     See Figure 2 for NCSD’s proposed stafﬁng and budget as of February 23, 2004.


                            Progress and Challenges in Securing the Nation’s Cyberspace                       Page 11
          Figure 2

                        NCSD Organization (as of February 23, 2004)




          Strategic Plans and Performance Measures

          NCSD has not developed a strategic plan, with speciﬁc goals, objectives, and
          milestones, to implement its initiatives and to ensure that processes coincide
          with the national priorities and recommendations in The National Strategy to
          Secure Cyberspace. An approved strategic implementation plan helps ensure
          that processes are established and that NCSD is focusing on the critical tasks
          necessary to secure the nation’s critical cyber infrastructure. Additionally,
          performance measures are needed to allow management to assess NCSD’s
          progress in addressing priorities and attaining strategic goals and milestones.
          NCSD cannot track in an efﬁcient and effective manner its or other public and
          private organizations’ progress in implementing The National Strategy to Secure
          Cyberspace if performance measures are not developed and monitored.

          Only one branch within NCSD, Vulnerability Analysis, has drafted a plan
          formally to document its strategic and performance goals and objectives. The



Page 12               Progress and Challenges in Securing the Nation’s Cyberspace
  plan, however, has not been reviewed or approved by NCSD management.
  NCSD needs to ensure that each branch develops and implements strategic plans
  and processes that are focused on the priorities and processes that will enable it
  to accomplish its mission. In addition, the performance measures that will be
  used to evaluate NCSD’s progress in building an effective organization capable of
  mitigating long-term cyber threats and vulnerabilities should be addressed within
  each branch’s strategic plan.

  In February 2002, the Ofﬁce of Management and Budget reported to Congress
  that the lack of performance measures was one of six common government-
  wide security weaknesses. As documented in The National Strategy to Secure
  Cyberspace, each federal department and agency will be accountable for
  its performance on cyber security efforts and be responsible for employing
  performance measures to evaluate progress in implementing the recommendations
  in The National Strategy to Secure Cyberspace. Also, the performance measures
  utilized should allow agencies to make resource allocation decisions and adjust
  priorities accordingly.

  Improve Formal Communications

  NCSD has not instituted a formal communications process within DHS, or
  within the government, private, intelligence, or international communities. In
  addition, NCSD has not determined how best to communicate US-CERT’s
  mission, roles, and responsibilities to its partners. The communications process is
  critical to ensuring that the assistance DHS is providing to secure cyber systems
  and infrastructures will be utilized by the public and private sectors, and to
  encouraging the sharing of critical cyber threat and vulnerability information.
  This includes any pertinent intelligence information, so that NCSD has the
  information it needs to accomplish its mission. Priority I of The National
  Strategy to Secure Cyberspace calls for DHS to raise awareness and remove
  impediments to information sharing regarding cyber security and infrastructure
  vulnerabilities between the public and private sectors, too. DHS cannot address
  this recommendation effectively without a formal communications process.

  NCSD and the Homeland Security Operations Center (HSOC) communicate
  and share cyber threat information on a daily basis. This process is an effective
  way to ensure that NCSD receives all cyber-related threat information that
  comes into HSOC. NCSD communicates with DHS’ Chief Information Security
  Ofﬁcer (CISO) and other federal agencies, too, including the intelligence and law
  enforcement communities on a regular basis. Many of these communications,



Progress and Challenges in Securing the Nation’s Cyberspace                   Page 13
          however, are on an ad hoc basis, relying on personal relationships NCSD
          personnel have developed with people over the years. The reliance on personal
          relationships for key communications is risky and could result in NCSD’s not
          receiving or sharing critical cyber security information if those contacts are not
          available or if the person initiating the contact no longer works for NCSD or
          DHS.

          In interviews with government and private sector partners, we learned that
          NCSD’s mission, structure, and roles and responsibilities are not adequately
          communicated to its partners in the public and private sectors. Several partners
          interviewed suggested that the government’s communication mechanisms need to
          be improved, e.g., use of advertising has not been used to reach the public at large.

          Effectively Oversee and Provide Guidance

          NCSD has not developed a formal process to oversee or provide guidance on
          cyberspace security issues to DHS, other federal, state, and local governments,
          and the private sector. According to NCSD management ofﬁcials, oversight
          responsibilities were not formally established or speciﬁcally addressed with the
          creation of the division.

          The National Strategy to Secure Cyberspace is but a ﬁrst step in a long-term
          effort to secure the nation’s information infrastructure. The federal government
          is to continue broad partnerships in the public and private sectors to develop,
          implement, and reﬁne The National Strategy to Secure Cyberspace. DHS
          has been assigned the central role in its implementation. It is responsible for
          overseeing federal department and agency plans and programs to execute
          the initiatives assigned; coordinating and supporting the implementation of
          recommended non-federal tasks; providing the guidance to address the tasks
          assigned; and, periodically reﬁning The National Strategy to Secure Cyberspace.

          Through its Outreach Branch, NCSD is coordinating with other government
          agencies and private sector organizations; multi-state, IT, and sector Information
          Sharing and Analysis Centers; and DHS’ Ofﬁce of the Chief Information Ofﬁcer
          on critical infrastructure protection issues. It is not, however, actively overseeing
          the performance of those entities. Meanwhile, NCSD is relying on the National
          Institute of Standards and Technology to establish guidance for cyber security.
          Effective oversight and guidance by DHS is needed to ensure that that all federal,
          state, and local government agencies, as well as the private sector, are properly
          securing their own critical infrastructures.



Page 14                Progress and Challenges in Securing the Nation’s Cyberspace
Recommendations
             We recommend that the Under Secretary for IAIP direct the Assistant Secretary
             for Infrastructure Protection:

             Recommendation #1:

             Prioritize NCSD’s initiatives and establish milestones based on the funding
             available. A plan for ensuring the completion of priorities needs to be developed
             and tied to speciﬁc milestone completion dates.

             Recommendation #2:

             Finalize NCSD’s organizational structure, with supporting budget and stafﬁng
             levels for each branch. To do this, NCSD should obtain IAIP management’s
             approval of the budget and resources needed to carry out its mission and
             implement The National Strategy to Secure Cyberspace. Approved budget
             resources and stafﬁng can then be allocated to each branch.

             Recommendation #3:

             Ensure that NCSD and each branch develop strategic implementation plans
             identifying milestones and completion dates that coincide with the division’s
             priorities, the roles and responsibilities of its staff, and the tasks needed to
             implement The National Strategy to Secure Cyberspace. Management should
             approve these plans and use them to monitor and evaluate NCSD’s progress in
             accomplishing its initiatives, priorities, and tasks.

             Recommendation #4:

             Develop performance measures that can be used to determine the progress DHS
             and all other responsible organizations (public and private sector) are making in
             addressing the actions and recommendations in The National Strategy to Secure
             Cyberspace. The performance measures should be reviewed periodically to
             ensure that they are being met.

             Recommendation #5:

             Deﬁne and communicate the roles and responsibilities of the division, its
             branches, and its staff. Develop a plan to improve NCSD’s communications


           Progress and Challenges in Securing the Nation’s Cyberspace                     Page 15
             with its public and private sector partners, including home users, on its structure,
             mission, and roles as well as responsibilities regarding cyber security awareness
             and protection.

             Recommendation #6:

             Develop and document a process to communicate and share information obtained
             on cyber vulnerabilities, threats, and incidents with key federal, state and local
             government intelligence and law enforcement agencies.

             Recommendation #7:

             Initiate and implement a process to oversee DHS and other federal, state, and
             local government efforts to protect their respective critical infrastructures from
             cyber vulnerabilities and threats.

             Recommendation #8:

             Develop and issue necessary guidance and directives on protecting critical
             infrastructures from cyber vulnerabilities and threats and improving security.

             Recommendation #9:

             Review and reﬁne periodically the actions and recommendations in The National
             Strategy to Secure Cyberspace.

Management Comments and OIG Evaluation
             We obtained written comments (Appendix B) on a draft of this report from
             IAIP. Generally, IAIP agreed with the report’s ﬁndings and recommendations
             and said that signiﬁcant advancements in addressing all of the recommendations
             have been made. However, IAIP also said that some of our recommendations
             have been rendered obsolete or overcome by new circumstances. Based on our
             assessment of IAIP’s speciﬁc comments, none of the recommendations have been
             fully implemented, and therefore, the conditions noted in the report continue to
             exist. Below is a summary of IAIP’s response to each recommendation and our
             assessment of the response.




Page 16                   Progress and Challenges in Securing the Nation’s Cyberspace
  Recommendation #1: Prioritize NCSD’s initiatives and establish milestones
  based on the funding available. A plan for ensuring the completion of
  priorities needs to be developed and tied to speciﬁc milestone completion
  dates.

  IAIP agreed that the formulation of milestones is an important step to achieve
  results and to execute a plan. In March and early April 2004, NCSD created
  detailed internal milestones, including completion dates and priorities. This
  information was tied to budget ﬁgures and submitted to the United States House
  of Representatives Select Committee on Homeland Security in May 2004.
  Correspondingly, each branch within NCSD has been engaged in updating their
  respective milestones and in correlating those milestones to manpower needs and
  funding requirements for ﬁscal years 2004, 2005, and 2006.

  We accept IAIP’s response that milestones have been established based on
  funding available. NCSD still needs to develop a plan to ensure that milestones
  are prioritized and the timelines for completing milestones are being met. NCSD
  should provide us with a copy of the plan.

  Recommendation #2: Finalize NCSD’s organizational structure, with
  supporting budget and stafﬁng levels for each branch. To do this, NCSD
  should obtain IAIP management’s approval of the budget and resources
  needed to carry out its mission and implement The National Strategy to
  Secure Cyberspace. Approved budget resources and stafﬁng can then be
  allocated to each branch.

  IAIP agreed with our recommendation. On March 18, 2004, NCSD ﬁnalized
  and implemented the division’s organizational structure. NCSD will continually
  assess its organizational structure for operational efﬁciency and expects to release
  a revised version of the organizational structure in the third quarter of 2004.
  An initial budget and stafﬁng plan has also been developed, and the current
  budget justiﬁcation cycle is being utilized to reﬁne and to accurately reﬂect the
  organizational structure for the FY 2005 and FY 2006 budget submission.

  We agree that the steps that NCSD has taken, and plans to take, satisﬁes this
  recommendation.




Progress and Challenges in Securing the Nation’s Cyberspace                    Page 17
          Recommendation #3: Ensure that NCSD and each branch develop strategic
          implementation plans identifying milestones and completion dates that
          coincide with the division’s priorities, the roles and responsibilities of its
          staff, and the tasks needed to implement The National Strategy to Secure
          Cyberspace. Management should approve these plans and use them to
          monitor and evaluate NCSD’s progress in accomplishing its initiatives,
          priorities, and tasks.

          IAIP accepted and is implementing this recommendation.

          We accept IAIP’s response to our recommendation. NCSD should provide us
          with speciﬁc dates when it expects their strategic implementation plans will be
          completed and approved.

          Recommendation #4: Develop performance measures that can be used
          to determine the progress DHS and all other responsible organizations
          (public and private sector) are making in addressing the actions and
          recommendations in The National Strategy to Secure Cyberspace. The
          performance measures should be reviewed periodically to ensure that they
          are being met.

          IAIP is currently working with each of the Department’s directorates and divisions
          to develop performance measures and metrics. NCSD agreed to work within the
          framework of performance measures and metrics for the overall infrastructure
          protection program. When complete, these performance measures and metrics
          will provide a basis for continuous measurement and improvement across DHS.

          We agree that NCSD has taken steps to address the intent of this recommendation.
          NCSD should also develop performance measures for the public and private
          sector organizations that are responsible for addressing the actions and
          recommendations in The National Strategy to Secure Cyberspace. NCSD should
          provide us with a copy of the performance measures and timeline for periodically
          reviewing the performance measures to ensure that they are being met.

          Recommendation #5: Deﬁne and communicate the roles and responsibilities
          of the division, its branches, and its staff. Develop a plan to improve NCSD’s
          communications with its public and private sector partners, including home
          users, on its structure, mission, and roles as well as responsibilities regarding
          cyber security awareness and protection.




Page 18               Progress and Challenges in Securing the Nation’s Cyberspace
  IAIP agreed and recognized the importance of deﬁning and communicating the
  roles and responsibilities of NCSD to its branches and staff. IAIP agreed that the
  goal for increased public awareness of the roles and responsibilities of NCSD is
  a critical component to accomplish its mission. NCSD designed the US-CERT,
  launched the National Cyber Alert System, and has undertaken a number of
  programs geared toward sharing information and developing working partnerships
  with the public and private sectors. NCSD also has submitted a detailed
  outreach plan for calendar year 2004 that outlines a public outreach campaign for
  communications.

  We agree that the steps NCSD has taken, and plans to take, satisfy the intent of
  this recommendation. NCSD should provide us with a copy of the outreach plan.

  Recommendation #6: Develop and document a process to communicate
  and share information obtained on cyber vulnerabilities, threats, and
  incidents with key federal, state and local government intelligence, and law
  enforcement agencies.

  IAIP agreed with our recommendation. NCSD is reviewing draft standard
  operating procedures on how its operations group handles, assesses, and
  coordinates emerging cyber related events. These procedures will continually
  evolve and mature over time.

  We agree that the steps NCSD has taken satisfy the intent of this recommendation.
  NCSD should provide us with a copy of the approved standard operating
  procedures.

  Recommendation #7: Initiate and implement a process to oversee DHS and
  other federal, state, and local government efforts to protect their respective
  critical infrastructures from cyber vulnerabilities and threats.

  IAIP accepted this recommendation and has active programs already being
  implemented to address the recommendation.

  We accept IAIP’s response. NCSD should create a timeline to track the
  implementation of these active programs.

  Recommendation #8: Develop and issue necessary guidance and directives on
  protecting critical infrastructures from cyber vulnerabilities and threats and
  improving security.



Progress and Challenges in Securing the Nation’s Cyberspace                 Page 19
          IAIP agreed with our recommendation. NCSD has issued guidance on protecting
          critical infrastructures from cyber threats and on the general improvement of
          security.

          We accept IAIP’s response. NCSD should create a timeline for issuing directives
          on protecting critical infrastructures for both the public and private sectors.

          Recommendation #9: Review and reﬁne periodically the actions and
          recommendations in The National Strategy to Secure Cyberspace.

          IAIP agreed with the intent of this recommendation. NCSD monitors many of its
          initiatives, and will improve its evaluation and analysis process, in the context of
          the actions and recommendations in The National Strategy to Secure Cyberspace,
          as well as the other strategic documents.

          We agree that the steps NCSD has taken, and plans to take, satisﬁes the intent of
          this recommendation.




Page 20                Progress and Challenges in Securing the Nation’s Cyberspace
                                                                       Appendix A
                                                                       Purpose, Scope, and Methodology



Purpose, Scope, and Methodology
               The objective of our audit was to determine whether DHS’ efforts to protect the
               nation’s critical infrastructure from a major cyber terrorist attack are adequate
               and effective. Our audit focused on NCSD, within DHS’ IAIP directorate. We
               determined whether: (1) NCSD’s organizational structure was established to
               fulﬁll its assigned roles and responsibilities; (2) NCSD has developed effective
               implementation plans; and, (3) NCSD is performing its oversight responsibilities
               as outlined in The National Strategy to Secure Cyberspace.

               We conducted our audit between December 2003 and February 2004 under the
               authority of the Inspector General Act of 1978, as amended, and according to
               generally accepted government auditing standards. To fulﬁll our audit objective,
               we interviewed IAIP ofﬁcials; NCSD’s Director, Deputy Directors, branch
               chiefs and staff; and other federal and non-government ofﬁcials who work in
               coordination with NCSD. We reviewed The National Strategy for Homeland
               Security, the Homeland Security Act of 2002, The National Strategy to Secure
               Cyberspace, The National Strategy for the Physical Protection of Critical
               Infrastructures and Key Assets, and Homeland Security Presidential Directive
               7. We used these documents as criteria for DHS’ roles and responsibilities
               in identifying, preventing, responding to, and recovering from cyber attacks.
               Also, we reviewed documentation pertaining to IAIP and NCSD, including
               presentations, press releases, congressional testimony, organizational charts,
               websites, and various news articles. In addition, we assessed NCSD’s progress
               in implementing the actions and recommendations from The National Strategy to
               Secure Cyberspace.

               The principal OIG points of contact for the audit are Frank Deffer, Assistant
               Inspector General for Information Technology, (202) 254-4100, and Edward
               G. Coleman, Director, Information Security, (202) 254-5444. Major OIG
               contributors to the audit are identiﬁed in Appendix C.




             Progress and Challenges in Securing the Nation’s Cyberspace                        Page 21
Appendix B
Management’s Comments




Page 22                 Progress and Challenges in Securing the Nation’s Cyberspace
                                                              Appendix B
                                                              Management’s Comments




Progress and Challenges in Securing the Nation’s Cyberspace                   Page 23
Appendix B
Management’s Comments




Page 24                 Progress and Challenges in Securing the Nation’s Cyberspace
                                                              Appendix B
                                                              Management’s Comments




Progress and Challenges in Securing the Nation’s Cyberspace                   Page 25
Appendix B
Management’s Comments




Page 26                 Progress and Challenges in Securing the Nation’s Cyberspace
                                                              Appendix B
                                                              Management’s Comments




Progress and Challenges in Securing the Nation’s Cyberspace                   Page 27
Appendix C
Major Contributors to This Report



                     Ofﬁce of Information Technology
                     Information Security Audits Division

                     Edward G. Coleman, Director
                     Barbara Bartuska, Audit Manager
                     Jeff Arman, Audit Manager
                     Chelsea Pickens, Senior IT Auditor
                     Foxhall Parker, IT Auditor
                     Meghan Sanborn, Referencer




Page 28                             Progress and Challenges in Securing the Nation’s Cyberspace
                                                              Appendix D
                                                              Report Distribution



  Department of Homeland Security

  Secretary
  Deputy Secretary
  Chief of Staff
  General Counsel
  DHS OIG Liaison
  DHS Public Affairs

  Ofﬁce of Management and Budget

  Chief, Homeland Security Branch
  DHS OIG Budget Examiner

  Congress

  Congressional Oversight and Appropriations Committees, as appropriate




Progress and Challenges in Securing the Nation’s Cyberspace               Page 29
Page 30   Progress and Challenges in Securing the Nation’s Cyberspace
Additional Information and Copies

To obtain additional copies of this report, call the Ofﬁce of Inspector General (OIG)
at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the OIG
Hotline at 1-800-323-8603; write to Department of Homeland Security, Washington, DC
20528, Attn: Ofﬁce of Inspector General, Investigations Division – Hotline. The OIG
seeks to protect the identity of each writer and caller.
